Highlights
Table of Contents




                    Post Office
                    Relocation
                    Process
Findings
Recommendations




                    Audit Report
                    Report Number
                    DR-AR-14-008

                    September 2, 2014
Appendices




                                        Print
Highlights
Table of Contents




                    Highlights                           Background                                                           announcement dates. We found that only one of the 25 appeals
                                                                                                                              filed for the 114 projects was upheld, leading management to
                                                         The U.S. Postal Service manages 31,702 post offices that
                                                                                                                              halt the relocation. Further, the Postal Service could not
                                                         provide retail services such as counter assistance, postage
                                                                                                                              readily identify the number of relocations and officials did
                                                         stamps, money orders, and Post Office boxes. The
                                                                                                                              not always efficiently manage the public notification and
                          The process for relocating     Postal Service can relocate post offices from one place to
                                                                                                                              documentation process.
Findings




                                                         another, typically within the same ZIP Code area, for reasons
                                   facilities was not
                                                         such as lease issues or space optimization.                          These conditions occurred because some procedures were
                                always transparent.                                                                           unclear and the vice president, Facilities, was authorized to
                                                         The relocation process consists of a concept study, public
                                                                                                                              approve funding and adjudicate appeals. Further, there were no
                                                         notification, and site selection. The Postal Service informs local
                                                                                                                              requirements to track all relocations and officials did not always
                                                         officials and the public of the proposed relocation. Both may
                       Consequently, the public and                                                                           know the specific guidelines and processes. Consequently,
                                                         comment on and appeal the plan to relocate retail operations.
                                                                                                                              the public and local officials may not have had the information
                                                         Both may also comment on the final site selection, but neither
Recommendations




                     local officials may not have had                                                                         they needed to make informed comments and determine the
                                                         may appeal it unless it was disclosed during the initial public
                                                                                                                              impact of a relocation, potentially harming the Postal Service’s
                        the information they needed      meeting. The vice president, Facilities, adjudicates appeals.
                                                                                                                              relationship with the public.
                        to make informed comments        Our objective was to assess the Postal Service’s process for
                                                         relocating retail operations to other facilities.                    What the OIG Recommended
                       and determine the impact of a
                                                                                                                              We recommended the vice president, Facilities, revise
                      relocation, potentially harming    What the OIG Found                                                   regulations and guidelines to enhance transparency and
                                                                                                                              public input for potential alternative site selections. We also
                     the Postal Service's relationship   The process for relocating facilities was not always transparent.
                                                                                                                              recommended modifying the guidance to remove the official’s
                                                         Further, the vice president, Facilities, has conflicting
                                                                                                                              dual funding and adjudicating responsibilities; establishing a
                                    with the public.     responsibilities for approving funding and adjudicating relocation
                                                                                                                              method to track and monitor relocations and documentation
Appendices




                                                         appeals. We reviewed 33 of the 114 relocation projects we
                                                                                                                              requirements and retention periods for relocation files; and
                                                         identified for fiscal years 2011 through 2013, and found
                                                                                                                              training real estate specialists.
                                                         25 new site selections were not announced until after the public
                                                         comment and appeal periods ended, and two had undetermined

                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                      Print                                     1
Highlights
                    Transmittal Letter


                                                     September 2, 2014					

                                                     MEMORANDUM FOR:	 TOM A. SAMRA
Table of Contents




                                                     				VICE PRESIDENT, FACILITIES

                                                                                     E-Signed by Robert Batta
                                                                                   VERIFY authenticity with e-Sign



                                                     				

                                                     FROM: 			 Robert J. Batta
                                                     				Deputy Assistant Inspector General
                                                     				       for Missions Operations

                                                     SUBJECT: 			                Audit Report – Post Office Relocation Process
Findings




                                                     				                        (Report Number DR-AR-14-008)

                                                     This report presents the results of our audit of the Post Office Relocation Process
                                                     (Project Number 14XG005DR000).

                                                     We appreciate the cooperation and courtesies provided by your staff. If you have
                                                     any questions or need additional information, please contact Rita F. Oliver, director,
                                                     Delivery and Post Office Operations, or me at 703-248-2100.
Recommendations




                                                     Attachment

                                                     cc:	   Corporate Audit and Response Management
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                           Print              2
Highlights
                    Table of Contents
                                                     Cover
                                                     Highlights.......................................................................................................1
                                                      Background.................................................................................................1
                                                      What the OIG Found...................................................................................1
Table of Contents




                                                      What the OIG Recommended.....................................................................1
                                                     Transmittal Letter...........................................................................................2
                                                     Findings.........................................................................................................4
                                                      Introduction.................................................................................................4
                                                      Conclusion..................................................................................................4
                                                      Post Office Relocation Process..................................................................5
                                                        Announcement of New Locations ............................................................5
                                                        Appeals....................................................................................................6
                                                      Number of Relocations ..............................................................................7
                                                      Relocation Process Management...............................................................8
Findings




                                                     Recommendations......................................................................................10
                                                      Management’s Comments........................................................................10
                                                      Evaluation of Management’s Comments.................................................. 11
                                                     Appendices..................................................................................................13
                                                      Appendix A: Additional Information...........................................................14
                                                        Background ...........................................................................................14
Recommendations




                                                        Objective, Scope, and Methodology.......................................................14
                                                        Prior Audit Coverage..............................................................................15
                                                      Appendix B: Relocation Process Flowchart..............................................16
                                                      Appendix C: Appealed Relocation Projects..............................................17
                                                      Appendix D: Analysis of Relocations Involving Retail Operations ...........18
                                                      Appendix E: Management’s Comments....................................................20
                                                     Contact Information.....................................................................................24
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                            Print                         3
Highlights
                    Findings                             Introduction
                                                         This report presents the results of our self-initiated audit of the U.S. Postal Service’s Post Office Relocation Process
                                                         (Project Number 14XG005DR000). Our objective was to assess the Postal Service’s process for relocating Post Office
                                                         retail operations to other facilities. See Appendix A for additional information about this audit.

                                                         The Postal Service manages 31,702 post offices that provide retail services such as counter assistance, postage stamps, money
                                                         orders, and Post Office (PO) boxes.1 The Postal Service can move a Post Office’s retail operations from one location to another,
                          We reviewed 33 of the 114      typically within the same ZIP Code area, for reasons such as lease issues and space optimization (see Figures2 1 and 2 for
Table of Contents




                                                         images of a completed Post Office relocation). The U.S. Postal Service Office of Inspector General (OIG) identified
                     relocation projects we identified   114 Post Office retail operation relocations that occurred for fiscal years (FY) 2011 through 2013.
                      for FYs 2011 through 2013 and
                                                      Figure 1 – Prior Location of the                                                         Figure 2 – New Location of the
                    found 25 new site selections that Washington Bridge Station, New York, NY 10033                                            Washington Bridge Station, New York, NY 10033

                      were not announced until after
                     the public comment and appeal
                         periods ended and two with
                       undetermined announcement
Findings




                      dates. We also found that only
                       one of the 25 appeals filed for    Source: OIG photograph taken December 6, 2013.                                        Source: OIG photograph taken December 6, 2013.

                        the 114 projects was upheld,     The relocation process consists of a concept study, public notification, and site selection. Facility staff prepares a node study to
                    leading the Postal Service to halt   initiate a relocation and, once the study and funding are approved, the Postal Service informs local officials and the public of the
                                                         proposed relocation. Local officials and the public can comment on and appeal the proposal to relocate retail operations. The
Recommendations




                                     the relocation.     vice president, Facilities, adjudicates these appeals. Postal Service management identifies and selects a final site. Additionally,
                                                         local officials and the public can comment on the final site selection, but neither can appeal it unless it was disclosed during the
                                                         initial public meeting. Title 39 of the Code of Federal Regulations (CFR) and Postal Service guidance do not require officials to
                                                         announce the new sites at public meetings.3 See Appendix B for a flowchart of the relocation process.

                                                         Conclusion
                                                         The process for relocating facilities is not always transparent. Further, the vice president, Facilities, has conflicting responsibilities
                                                         for approving funding and adjudicating relocation appeals. We reviewed 33 of the 114 relocation projects we identified for
                                                         FYs 2011 through 2013 and found 25 new site selections that were not announced until after the public comment and appeal
Appendices




                                                         1	 This total includes post offices, classified branches, stations, and annexes. Some annexes, however, may not offer retail services. For the sake of simplicity, all references
                                                            to relocations in this report refer to the movement of retail operations only.
                                                         2	 The distance between the prior and new location is less than 1 mile.
                                                         3	 The Postal Service must follow 39 C.F.R. §241.4 and the Postal Service’s Community Relations Regulations for U.S. Postal Service Facilities Projects for relocating
                                                            retail operations. These regulations and guidelines were established to assure increased opportunities for the public and local officials to convey their views concerning
                                                            relocations and have them considered prior to any final decision. The notification requirements are the same whether the retail facility is in a postal-owned or a
                                                            leased space.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                                   Print                                                 4
Highlights                                           periods ended and two with undetermined announcement dates. We also found that only one of the 25 appeals filed for the
                                                     114 projects was upheld, leading the Postal Service to halt the relocation. Further, the Postal Service was not adequately tracking
                                                     the number of relocations and could not readily identify all of them. Finally, officials did not always effectively manage the public
                                                     notification and documentation process.

                                                     These conditions occurred because some procedures were unclear and the vice president, Facilities, was authorized to approve
                                                     funding and adjudicate appeals. Further, Postal Service guidelines did not require tracking of all relocations and officials did not
                                                     always know the specific relocation processes. Consequently, the public and local officials may not have had the information they
                                                     needed to make informed comments and determine the impact of a relocation, which could harm the Postal Service’s relationship
Table of Contents




                                                     with the public.

                                                     Post Office Relocation Process
                                                     The relocation process was not always transparent. Site selection announcements were made at various times during the process
                                                     and the official adjudicating appeals also approved funding for the relocation projects. Additionally, a listing of all relocations for
                                                     the past 3 fiscal years was not readily available. Furthermore, there were administrative and management issues with public
                                                     notification and documentation processes.

                                                     Announcement of New Locations
                                                     Generally, the Postal Service did not announce new locations until after the public comment and appeal periods had ended and it
                                                     had selected and secured a new site.
Findings




                                                     We reviewed 334 of 114 relocations5 and our analysis showed that:

                                                     ■■ The Postal Service did not announce the final site selection for 25 of 33 relocations (76 percent) until after the public comment
                                                        and appeal periods ended.6

                                                     ■■ The Postal Service announced the final site selection for six of 33 relocations (18 percent) during the public meeting or
Recommendations




                                                        before the comment and appeal periods ended. In each case, the Postal Service planned to move the retail operation to a
                                                        postal-owned location that did not have retail services, such as a carrier annex.7

                                                     ■■ We were unable to determine whether the Postal Service announced the final site selection for two of 33 relocations
                                                        (6 percent) during the public meeting or before the comment period ended (see Figure 3).8




                                                     4	 We judgmentally selected 33 retail relocations to review – seven projects were complete, 20 were ongoing, four had been canceled, and we were unable to identify the
                                                        status of two.
                                                     5	 Twenty-eight of 33 were initiated to optimize or right-size facility space, one lease was terminated, and one lease was pre-empted. We were unable to identify the purpose
Appendices




                                                        of the remaining three due to insufficient documentation.
                                                     6	 Because some relocations were ongoing, the new site locations may still not be known to the public.
                                                     7	 For the seven completed relocations, three were relocated to carrier annexes that did not have retail service and three were moved to leased space not previously
                                                        occupied by the Postal Service. The remaining relocation was moved concurrently with another Post Office to a single leased location not previously occupied by the
                                                        Postal Service.
                                                     8	 For two of the projects, we were unable to determine this information due to a lack of documentation in the relocation files. Additionally, real estate specialists were unable
                                                        to provide any additional information regarding this matter.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                                Print                                                 5
Highlights                                           Figure 3 – Public Notification Phase

                                                                                                                           Decision to                                 Final               Alternative    Alternative
                                                             Public                 Public            Comment                                     Appeal
                                                                                                                            Proceed                               Determination                Site           Site
                                                             Notice                Meeting             Period                                     Period
                                                                                                                             or Not                                 of Appeal               Selected      Announced



                                                                                                                                                                              25 of 33
                                                                                  6 of 33
                                                                                                                                                                      Postal Service did not
                                                                       Postal Service announced
Table of Contents




                                                                                                                                                                   announce final site selection
                                                                        final site location during
                                                                                                                                                                       until after the public
                                                                             public meeting.
                                                                                                                                                                      comment and appeal
                                                                                                                                                                       periods had ended.
                                                               Public can comment and appeal.
                                                               Local officials and public can comment, however neither can appeal.


                                                     Source: OIG analysis.
                                                     Note: For two of the projects, we were unable to determine this information due to a lack of documentation in the relocation files.


                                                     Neither the regulations9 nor Postal Service guidance10 require the Postal Service to notify the public of the site selection at the
                                                     public meetings or before the public comment and appeal periods end. Postal Service guidance instructs responsible personnel to
                                                     use due diligence in divulging the final site location. This due diligence may include postponing notification to local officials and the
Findings




                                                     public to protect the Postal Service’s negotiating leverage and control costs. On the other hand, we recognize that without knowing
                                                     the final location the public cannot adequately comment on or fully assess the impact of a relocation.

                                                     Appeals
                                                     The vice president, Facilities, has conflicting responsibilities for approving funding and adjudicating relocation appeals.
                                                     Of the 114 proposed relocation projects, 25 were appealed:
Recommendations




                                                     ■■ Twelve of the 33 relocations we selected for review were appealed. The Postal Service denied seven of those appeals and
                                                        proceeded with its plan to relocate the retail operations. One relocation was reversed,11 one was canceled,12 and the remaining
                                                        three were pending.13

                                                     ■■ We requested information regarding the appeal status for the remaining 81 proposed relocation projects and learned that
                                                        13 were appealed, management denied 10 of those appeals and proceeded with relocation plans, and the remaining three
                                                        were pending.14


                                                     9	 39 C.F.R. §241.4.
                                                     10	 Community Relations Regulations for U.S. Postal Service Facilities Projects, May 1999.
                                                     11	 The reversal for the Southmore Station in Houston, TX, occurred on May 16, 2014. The vice president, Facilities, stated the decision to remain at the current location was
Appendices




                                                         based on several appeals and supplemental Postal Service analysis that indicated growth in Postal Service customer numbers due to expected new businesses and new
                                                         housing developments in the nearby area.
                                                     12	 The relocation was canceled due to falling property values prior to the issuance of an appeal determination letter.
                                                     13	 The submission deadline for filing appeals ended January 29, 2014, for one facility, and March 14, 2014, for the remaining two. As of May 14, 2014, the Postal Service had
                                                         not issued a decision on any of these pending appeals.
                                                     14	 The submission deadline for filing appeals ended on March 14, 2014, for these three facilities. As of May 14, 2014, the Postal Service had not issued a decision on any of
                                                         these pending appeals.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                               Print                                             6
Highlights                                           Thus, for the 25 appealed relocations, there was only one instance where the public and local officials succeeded and the
                                                     Postal Service halted the relocation. See Figure 4 and Appendix C for status of appeals. We did not identify any improprieties
                                                     regarding the appeals we reviewed; however, because of the Facilities vice president’s conflicting responsibilities, the public may
                                                     see this official as lacking objectivity to fairly adjudicate appeals. Other officials, including Operations and area management, are
                                                     involved in identifying relocation projects and the appeals process. However, this is not evident to the public.

                                                     Figure 4: Status of Appeals

                                                                                         OSED
                                                                               ICE IS CL
Table of Contents




                                                                  TA I L O F F
                                                          THIS RE              T AIL OFFIC
                                                                                           E
                                                             OUR N  E W   R  E
                                                                                 ED AT:
                                                                                                 Of the 114 proposed                                           Appea
                                                                                                                                                                        ls
                                                                   IS LOCAT                      relocation projects,
                                                                                                                                                                  25
                                                                                          T
                                                                               AD STREE
                                                                EAST BRO
                                                                                                25 were appealed.
                                                                   Hover over the categories below to see the
                                                                   success rate of these appeals.
                                                                           als
                                                                     Ape
Findings




                                                      	         Source: OIG analysis.



                                                     Number of Relocations
                                                     The Postal Service could not readily identify the number of completed or ongoing relocations15 for FYs 2011 through 2013.
                                                     Management explained that individual facilities maintain relocation documentation, so it is not all easily traceable or available
                                                     electronically. The OIG compiled data obtained through research, fieldwork, and documentation provided by Postal Service
                                                     Headquarters officials and area real estate specialists (RES). We identified 114 relocations that were completed or ongoing during
Recommendations




                                                     this period.16 Management informed us that Facilities’ Optimization Planning Blue Share website contains facility relocation data;
                                                     however, our review of the site revealed links to over 1,000 facility node studies and not all were related to retail relocations.17
                                                     Management also stated they tracked relocations via an implementation tracking form and that efforts to develop an electronic
                                                     tracking system would outweigh the benefits. We reviewed the implementation tracking form and found it tracked more than just
                                                     relocation projects and multiple terms18 were used to describe these projects. In addition, data was not consistently tracked for all
                                                     relocations.19 According to a senior official, there was no need to have the number of relocations readily available.




                                                     15	 Completed indicates the relocation process was finalized and the Postal Service moved retail operations to the alternative site. Ongoing indicates the relocation process
Appendices




                                                         was not finalized and retail operations were not moved.
                                                     16	 We cannot confirm that this total represents all retail facility relocations for FYs 2011 through 2013.
                                                     17	 The site contained various node studies, including those completed for area mail processing and mail processing facility consolidations.
                                                     18	 The Postal Service used 42 different terms in describing the projects including: “AQ-retail” (AQ stands for alternate quarters), “AQ-1:1,” “relocate retail,” and “retail
                                                         relocations,” as well as terms related to other facilities’ actions. As a result, it was difficult to identify only retail relocation projects.
                                                     19	 For example, data fields showing the dates the Postal Service met regulations requirements, such as the public meeting, were left blank for some projects and completed
                                                         for others.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                             Print                                               7
Highlights                                           Relocation Process Management
                                                     Area RESs did not always effectively manage the relocation process when notifying the public and managing documentation.
                                                     For example:

                                                     ■■ For 16 of 33 relocations (48 percent),20 the Postal Service did not issue a press release as required by the regulations.21 One
                                                        area RES stated that Corporate Communications decides whether to issue a press release. One manager thought a press
                                                        release was optional and that posting a notice at the impacted facility satisfied the public notification requirement.
Table of Contents




                                                     ■■ For 13 of 33 relocations (39 percent), the Postal Service did not adequately solicit comments. For example, notices issued in
                                                        three areas did not identify the comment due date. Two RESs did not consider the 15-day period following a public meeting to
                                                        be a “comment period” but instead saw it as a required waiting period before proceeding with the next steps in the process.

                                                     ■■ In five instances, RESs discussed multiple relocations during one meeting:

                                                         ●● In March 2011, postal officials held one meeting to discuss relocations involving two post offices (the Federal and Midtown
                                                            Plaza stations) in Rochester, NY.

                                                         ●● In March 2013, postal officials held one meeting to discuss relocations involving two post offices (the East Union and
                                                            International stations) in Seattle, WA.

                                                         ●● In March 2013, the Postal Service asked to be put on a borough meeting agenda to present information on relocations
Findings




                                                            involving three posts offices (the Old Chelsea, Peter Stuyvesant, and Triborough stations) in New York City.

                                                         ●● In December 2013, postal officials held one meeting for relocations affecting two different post offices (the Pratt and Times
                                                            Plaza stations) in Brooklyn, NY. We attended this meeting and noted the majority of it covered Pratt Station even though
                                                            the lease for the Times Plaza Station was scheduled to expire several months before the lease for the Pratt Station.

                                                         ●● In December 2013, postal officials held one meeting for relocations affecting six different post offices (the Memorial Park,
Recommendations




                                                            Julius Melcher, Greenbriar, University, Medical Center, and Southmore stations) in Houston, TX.

                                                     While regulations do not preclude addressing multiple locations at one meeting, it can be confusing and may be seen as an
                                                     attempt to minimize public input. Further, meetings held to discuss multiple relocations can also impact the amount of information
                                                     provided regarding each proposed relocation. According to Postal Service management, local officials asked that the New York
                                                     meetings be held simultaneously.
Appendices




                                                     20	 We were unable to confirm whether press releases were issued for three projects because of insufficient documentation.
                                                     21	 39 C.F.R. §241.4 (c)(3).
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                           Print            8
Highlights                                           ■■ Officials maintained insufficient supporting documentation for the following three relocations:22

                                                         ●● Memorial Station – no evidence of a press release, public meeting notice, or notice of decision to proceed.

                                                         ●● Westport PO – no evidence of a press release, public meeting notice, or notice of decision to proceed.

                                                         ●● Milltown PO – no evidence of a public meeting notice.

                                                     RESs stated they maintain working files for every project and when projects are complete, they transfer certain documents relating
Table of Contents




                                                     to them to other facilities’ files (see Appendix D for our analyses of retail operations relocations).

                                                     Managers are responsible for providing reliable, useful, and timely information for transparency and accountability of programs and
                                                     their operations.23

                                                     These conditions occurred for several reasons:

                                                     ■■ The regulations and guidelines did not include:

                                                         ●● Timeframes for announcing a new location site to the public; however, Postal Service guidance instructs responsible
                                                            personnel to use due diligence in divulging the final site selection. Due diligence may include postponing notification to
                                                            local officials and the public to protect the Postal Service’s negotiating leverage and control costs.
Findings




                                                         ●● Requirements to track and monitor relocations nationwide.

                                                         ●● Requirements to maintain a complete record of the relocation notification process and a retention period for relocation
                                                            file documents.

                                                     ■■ Guidance gives the vice president, Facilities, authority to approve funding and regulations authorize the same official to
                                                        adjudicate appeals.
Recommendations




                                                     ■■ Officials did not always know the guidelines and processes.

                                                     Consequently, the public and local officials may not always have sufficient information needed to make informed comments and
                                                     determine the impact of a relocation, which could harm the Postal Service’s relationship with the public.
Appendices




                                                     22	 In addition, one file for the Boone Downtown Station was not available for review.
                                                     23	 Government Auditing Standards: 2011 Revision, Government Accountability Office-12-331G Washington, D.C., December 2011.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                     Print               9
Highlights
                    Recommendations                        We recommend the vice president, Facilities:

                                                           1.	 Revise Postal Service regulations and guidance for the retail operations relocation process to enhance transparency and public
                                                               input regarding potential alternative site selections.

                                                           2.	 Modify Postal Service guidance for retail operations relocations to remove dual responsibilities for approving funding and
                                                               adjudicating appeals.
                               We recommend the
                                                           3.	 Establish a method to track and monitor retail operation relocations nationwide.
Table of Contents




                    vice president, Facilities, revise
                      regulations and guidelines to        4.	 Establish documentation requirements and retention periods for relocation files.

                    enhance transparency and public        5.	 Provide formalized training for real estate specialists to ensure they administer the relocation process appropriately.

                    input for potential alternative site   Management’s Comments
                    selections. We also recommend          Management generally agreed with the findings and recommendations.

                         modifying the guidance to         Management stated that under current regulations, the anticipated site is not always identified at the initial public meeting.
                                                           Management requested the report clarify that the Postal Service is not arbitrarily withholding site information, but following the
                    remove the official’s dual funding
                                                           regulations. Further, the due diligence in leasing is for research and investigation to determine if a site is suitable and the guidance
                    and adjudicating responsibilities;     simply tells the public that the Postal Service may complete their research and investigation before the announcement
Findings




                     establishing a method to track        Management disagrees that the vice president, Facilities, has conflicting responsibilities and stated that nothing in the report
                                                           demonstrated a conflict. They also stated that because the OIG found no improprieties in the process, the report’s statement
                       and monitor relocations and         that “the public may see this official as lacking objectivity,” appears unfounded. Management further stated the vice president,
                       documentation requirements          Facilities, is exercising prudent responsibility to ensure appropriate allocation of scarce capital and has no compensation or
                                                           promotional opportunities tied to the project approval or the appeals decision. His dual roles can be complementary because
                          and retention periods for        fair and objective reviews of the competing interests require an understanding of the public’s concerns and the Postal Service’s
Recommendations




                                                           financial and operational requirements.
                       relocation files; and training
                                                           Management also stated that to make the best use of limited funds and staffing, they collect data and statistics that help them
                             real estate specialists.
                                                           efficiently and effectively manage Postal Service operations. They have tools for managing individual relocation projects and have
                                                           never needed to quantify the completed or ongoing relocations nationwide to manage Postal Service operations. Management
                                                           also stated they believe real estate specialists generally manage the relocation process effectively.

                                                           Management agreed with recommendation 1 stating that prior to the audit they identified issues with the timing and substance of
                                                           disclosures under current regulations governing the relocation process. They are considering revisions to the regulation to address
                                                           several concerns the OIG, the public, and others have raised. They anticipate the revisions will require substantial time and
                                                           analysis. Further, revisions must follow the regulatory process for modifying federal regulations; therefore, management could not
Appendices




                                                           identify a completion date or commit to making any specific changes in the regulations.




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                        Print                                   10
Highlights                                           Management agreed with recommendation 2 and will revise their guidance and remove dual responsibilities for approving funding
                                                     and adjudicating appeals by September 30, 2014.

                                                     Management agreed with recommendation 3, stating they will modify an existing management data tool to calculate the number of
                                                     ongoing and completed relocations nationwide by October 31, 2014.

                                                     Management also agreed with recommendation 4, stating they established documentation requirements and retention periods for
                                                     relocation files and published internal guidance for personnel on June 19, 2014.
Table of Contents




                                                     Management agreed with recommendation 5, stating they will provide formalized training updates to current personnel by
                                                     September 30, 2014, and ensure they train future employees engaged in the relocation process.

                                                     See Appendix E for Management’s Comments in their entirety.

                                                     Evaluation of Management’s Comments
                                                     The OIG considers management’s comments responsive to the recommendations and management’s corrective actions should
                                                     resolve the issues identified in the report.

                                                     Regarding recommendation 1 and the site selection announcement, the OIG Office of General Counsel reviewed management’s
                                                     comments and the regulations and indicated the Postal Service takes a strict reading to what OIG believes is an ambiguous
Findings




                                                     regulation. While the Postal Service has a plausible claim as to its interpretation that the regulation requires it to follow a certain
                                                     chain of events, the OIG does not agree with its statement that the regulation “precludes” it from announcing the new site earlier
                                                     in the process. The fact that the Postal Service has notified the public of site selections earlier in the process when relocating to
                                                     an existing postal facility, even though the regulation does not address this situation, supports this. Nonetheless, we can all agree
                                                     that the regulation needs clarification should the Postal Service revise it. In fact, management’s response appears to agree with
                                                     recommendation 1 in our report, noting that “management identified issues with the timing and substance of disclosures under
                                                     the current regulation” and is considering revisions “to address several concerns, including the concerns raised by the OIG.”
                                                     On August 26, 2014, Management informed OIG of their decision to move forward with revising the retail operations relocation
Recommendations




                                                     regulations and guidance. Management’s actions to initiate revisions regarding the timing and substance of disclosures and their
                                                     clarification of Postal Service guidance regarding due diligence in divulging the final site selection should enhance transparency
                                                     and public input, which satisfies the intent of this recommendation.

                                                     Regarding recommendation 2 and the conflicting roles of the vice president, Facilities, the report notes that we did not identify any
                                                     improprieties regarding the appeals and that other officials — including Operations and area management — are involved in the
                                                     relocation and appeals process. However, this is not evident to the public. Further, for the 25 appealed relocations, there was only
                                                     one instance where the public and local officials succeeded and the Postal Service halted the relocation. Management’s action to
                                                     remove dual responsibilities for approving funding and adjudicating appeals should satisfy the intent of this recommendation.

                                                     Regarding recommendation 3, modification to the existing management data tool to calculate the number of ongoing and
Appendices




                                                     completed relocations nationwide will be beneficial in managing this process.




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                   Print                                   11
Highlights                                           Regarding recommendations 4 and 5, we concur with management’s response and note that they provided documentation
                                                     supporting their corrective actions.

                                                     The OIG considers all recommendations significant and, therefore, requires OIG concurrence before closure. We concur that the
                                                     actions taken sufficiently addressed recommendations 4 and 5 and we consider these recommendations closed with the issuance
                                                     of this report.

                                                     Consequently, the OIG requests written confirmation when corrective actions are completed for recommendations 1, 2, and 3.
                                                     These recommendations should not be closed in the Postal Service’s follow-up tracking system until the OIG provides written
Table of Contents




                                                     confirmation that the recommendations can be closed.
Findings
Recommendations
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                             Print                                 12
Highlights
                    Appendices

                                                         Appendix A: Additional Information...........................................................14
                                                          Background ...........................................................................................14
                                                          Objective, Scope, and Methodology.......................................................14
                           Click on the appendix title    Prior Audit Coverage..............................................................................15
Table of Contents




                           to the right to navigate to   Appendix B: Relocation Process Flowchart..............................................16
                                                         Appendix C: Appealed Relocation Projects..............................................17
                                the section content.
                                                         Appendix D: Analysis of Relocations Involving Retail Operations ...........18
                                                         Appendix E: Management’s Comments....................................................20
Findings
Recommendations
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                          Print                      13
Highlights          Appendix A:                      Background
                    Additional Information           The Postal Service has 31,702 post offices that provide retail services such as counter assistance, postage stamps, money
                                                     orders, and PO boxes. The Postal Service is implementing a business strategy called Delivering, Results, Innovation, Value, and
                                                     Efficiency (DRIVE). Two DRIVE initiatives (3 and 4) involve optimizing facility space, reducing costs, generating revenue, and
                                                     improving customer service. In some cases, this has resulted in moving retail operations to other locations.

                                                     A Post Office relocation occurs when retail operations are moved from one location to another, typically within the same ZIP Code
                                                     area. The Postal Service must follow established regulations and procedures when it needs to relocate a retail operation.24
Table of Contents




                                                     The overall purpose of the relocation regulations is to ensure potentially affected individuals and local officials have an opportunity
                                                     to comment on proposed projects and the Postal Service considers those comments prior to any final decision. The Postal Service
                                                     must notify the public of the plan to relocate, hold a public meeting(s), solicit comments, allow for an appeal, and, if there is an
                                                     appeal, issue a final determination of its relocation decision.

                                                     The regulations and guidance for retail relocations do not require the Postal Service to identify the new location during public
                                                     meetings or before the comment and appeal periods end. The community notification requirements are the same whether the retail
                                                     facility is located in a postal-owned or leased space. See Appendix B for a flowchart of the relocation process.

                                                     Objective, Scope, and Methodology
                                                     Our objective was to assess the Postal Service’s process for relocating retail operations to other facilities. Our audit scope
                                                     included relocations for FYs 2011 through 2013. The Postal Service was unable to readily identify the number of completed or
Findings




                                                     ongoing relocations for FYs 2011 through 2013; therefore, our scope was limited to the 114 relocations that we identified through
                                                     research, fieldwork, and documentation provided by Postal Service Headquarters officials and area RESs.

                                                     To accomplish our objective, we:

                                                     ■■ Reviewed and analyzed applicable legislation, regulations, and other documents regarding relocating retail operations.
Recommendations




                                                     ■■ Interviewed headquarters officials and RESs in Dallas, TX; Denver, CO; Bloomingdale, IL; San Francisco, CA;
                                                        Windsor, CT; and Greensboro, NC, to gain an understanding of the relocation process for retail operations and the RESs’ roles
                                                        and responsibilities.

                                                     ■■ Judgmentally selected and analyzed facility relocation files for 33 of 114 retail relocations. To select the sample, we grouped
                                                        the identified retail facilities by area and randomly selected five facilities for each area.25 To ensure we examined the entire
                                                        process, we included both completed and ongoing projects (see Appendix D for our analysis of retail operations relocations).

                                                     ■■ Evaluated the appeal status of 114 retail relocations for FYs 2011 through 2013.

                                                     ■■ Reviewed pertinent news articles, blogs, and websites.
Appendices




                                                     24	 Community Relations Regulations for U.S. Postal Service Facilities Projects, May 1999.
                                                     25	 During our review of the project files, we identified and excluded two projects that did not fall within the parameters of our scope.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                                  Print          14
Highlights                                           We conducted this performance audit from November 2013 through September 2014, in accordance with generally accepted
                                                     government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                     Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                     basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                     basis for our finding and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                     management on June 17, 2014, and included their comments where appropriate.

                                                     We did not assess the reliability of any computer-generated data for the purposes of this report. We did not obtain any
                                                     computer-generated data for retail relocations. We obtained retail relocation data via hard copy files provided by area RESs.
Table of Contents




                                                     Prior Audit Coverage
                                                               Report Title                      Report Number                   Final Report Date                   Monetary Impact
                                                     Preservation and Disposal of                  SM-AR-14-004                        4/16/2014                           None
                                                     Historic Properties
                                                     Report Results:
                                                     The report determined the Postal Service did not know how many historic properties it owned or what it cost to preserve them,
                                                     report the status of historic artwork to the National Museum of American Art, as required, when it sold 10 historic post offices,
                                                     collaborate with the Advisory Council on Historic Preservation to improve its compliance with the National Historic Preservation Act,
                                                     or submit its 2011 status report to the council. The vice president, Facilities, who approves funding for the relocation of retail services
                                                     and disposal, also issues the final determination letter after reviewing appeals raised during the process, giving the appearance
Findings




                                                     of bias. The Postal Service appropriately applied relocation procedures rather than discontinuance procedures for all properties
                                                     reviewed; however, officials did not post the public meeting notification 7 days in advance for one property, as required, and could
                                                     not show documentation that it met the relocation requirements for two properties. We recommended management reconcile the
                                                     properties listed on the National Register of Historic Places to those in the Facilities management system, develop a process to
                                                     track expenditures for preserving historic properties, and notify the National Museum of American Art about the 10 sold post offices
                                                     containing historic art. Management should collaborate with appropriate organizations to improve the transparency of historic
                                                     property preservation and submit the 2011 status report to the Advisory Council on Historic Preservation. Postal Service officials
Recommendations




                                                     generally agreed with the recommendations.
                                                     Nationwide Facility Optimization              DA-AR-11-009                        8/26/2011                      Over $1.9 billion
                                                     Report Results:
                                                     The report statistically projected that the Postal Service maintains 67 million excess square feet nationwide. This level of excess is
                                                     more than the current commercial vacancy rate of 13.4 percent. The Postal Service has a much greater opportunity to aggressively
                                                     optimize excess space through disposal or leasing than its FY 2011 target for reducing interior space. To better establish strategic
                                                     targets in line with presidential and congressional direction, the Postal Service needs to overcome the challenges of understanding
                                                     the extent of excess space, incentivizing the effective use of facility space with the appropriate performance measures, and
                                                     enhancing the disposal process and leasing procedures. The report estimated that if the Postal Service initiated disposal action for
                                                     the excess space identified, it would have an opportunity to realize at least $3.48 billion nationwide over typical and remaining
                                                     lease terms. Management officials agreed that optimizing current facility infrastructure is a critical and important initiative for the
Appendices




                                                     Postal Service; however, they disagreed with the amount of excess space and potential monetary impact.




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                     Print                                     15
Highlights          Appendix B:                                                                                                          If appeals received, RES collects
                                                           Facilities staff complete Node Study.
                    Relocation Process                                                                                                      and summarizes issues. RES
                                                                                                                                        consults with Legal. Legal approves
                    Flowchart                                                                                                                     draft response.
                                                          Project concept and funding approved.



                                                         Real Estate Specialist (RES) arranges                                                       VP Facilities
                                                        meeting with local government official and                                            reviews and signs appeal
Table of Contents




                                                          prepares community contact letter.                                                     determination letter.



                                                         RES meets with local official and leaves
                                                        dated community contact letter. Arranges                                             Advertisement for alternate
                                                            to attend or hold public meeting.                                                    quarters/new site.


                                                            Public notice posted in post office.
                                                                                                                                                      Site review
                                                                                                                                                      committee
                                                                                                                                                     meeting held.
                                                                  Attend public meeting (s).
                                                                      Solicit comments.
Findings




                                                                                                                                         RES issues letter to local officials
                                                            Minimum 15-day comment period.                                             identifying contending sites and sites
                                                                                                                                          eliminated from consideration.



                                                                        RES evaluates
Recommendations




                                                                                                                                                          Site
                                                                         comments.                                                                      Selected.




                                                        RES prepares letter advising local officials                                RES notifies local officials of selected site.
                                                             of decision and appeal rights.


                                                                                                                                      Local officials and public can comment.
                                                                    30-day appeal period.


                                                                                                                                                   Project proceeds.
Appendices




                                                     Source: OIG flowchart.26



                                                     26	 The OIG developed the flowchart based on analysis of Title 39 C.F.R. §241.4 and Postal Service policies and procedures.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                                           Print     16
Highlights          Appendix C:                            Facility Name                             Status or Outcome of Appeal
                    Appealed Relocation               1    Berkeley Main Post Office (MPO)                     Appeal Denied
                    Projects                          2    Beverly Hills MPO                                   Appeal Denied
                                                      3    Bronx General PO                                    Appeal Denied
                                                      4    Coralville Sub Station                              Appeal Denied
                                                      5    Cornersburg Station                                 Appeal Denied
                                                      6    El Segundo Finance Station                          Appeal Denied
                                                      7    La Jolla MPO                                        Appeal Denied
Table of Contents




                                                      8    Los Angeles West Branch                             Appeal Denied
                                                      9    Mount Vernon Sandford Boulevard Station             Appeal Denied
                                                     10    Norristown MPO                                      Appeal Denied
                                                      11   Reading Downtown Station                            Appeal Denied
                                                      12   Reading MPO                                         Appeal Denied
                                                      13   Santa Monica MPO                                    Appeal Denied
                                                      14   Thousand Oaks Newbury Park Branch                   Appeal Denied
                                                      15   Ukiah MPO                                           Appeal Denied
                                                     16    Venice MPO                                          Appeal Denied
                                                      17   White Flint Mall Station                            Appeal Denied
                                                                      Total Appeals Denied                            17
Findings




                                                     18    Downtown Fort Worth Station                       Decision Pending
                                                     19    Greenbriar Station                                Decision Pending
                                                     20    Julius Melcher Station                            Decision Pending
                                                     21    Medical Center Station                            Decision Pending
                                                     22    Memorial Park Station                             Decision Pending
                                                     23    University Station                                Decision Pending
                                                                     Total Appeals Pending                             6
Recommendations




                                                     24    Southmore Station                            Decision to relocate reversed
                                                                    Total Appeals Reversed                             1
                                                                                                           Canceled project prior
                                                     25 Norwich MPO                                           to determination
                                                                      Total Appeals Canceled                           1
                                                     Source: OIG analysis.
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                        Print   17
Highlights          Appendix D:                                                                                    New Location
                                                                                                                   Identified
                    Analysis of Relocations                                                                        at Public
                    Involving Retail Operations                                                                    Meeting                       Adequately
                                                                                                                   or Before    Press            Solicited
                                                                                                                   Comment      Release          Public Written Date Relocation
                                                          Facility Name                 Origin         Status      Period Ended Issued           Comment        Completed
                                                     1    Timberlyne Station            Optimization   Canceled        No          No                No                -
                                                     2    White Flint Mall Station        Lease         Ongoing        No          No                No                -
                                                     3    Silver Spring PO              Optimization   Complete        No          No                No            10/22/12
Table of Contents




                                                     4    Annapolis MPO                 Optimization    Ongoing        No          No                No                -
                                                                                         Unable to     Unable to    Unable to   Unable to         Unable to       Unable to
                                                     5    Boone Downtown Station         Determine     Determine    Determine   Determine         Determine       Determine
                                                     6    York MPO                      Optimization   Complete        No          No                No             7/8/13
                                                     7    Lakewood Retail               Optimization    Ongoing        No          No                No                -
                                                     8    Reading Downtown Station      Optimization    Ongoing        No          No                No                -
                                                          Palmer Square Finance
                                                     9                                  Optimization   Ongoing         No          No                 No               -
                                                          Station
                                                     10   Rochester Federal Station     Optimization   Complete        No          No                No            5/6/13
                                                     11   Purcell Station               Optimization    Ongoing        No          No                Yes              -
                                                     12   Collinsville MPO              Optimization   Complete        Yes         No                Yes           1/27/14
Findings




                                                                                         Unable to     Unable to    Unable to   Unable to         Unable to       Unable to
                                                     13   Memorial Station               Determine     Determine    Determine   Determine         Determine       Determine
                                                     14   Milltown PO                   Optimization    Ongoing        No          Yes               Yes              -
                                                                                         Unable to                              Unable to         Unable to
                                                     15   Westport PO                                  Complete        No                                           1/3/12
                                                                                         Determine                              Determine         Determine
                                                     16   Norwich MPO                   Optimization   Canceled        Yes         Yes               Yes               -
                                                     17   Old Chelsea Station           Optimization   Ongoing         No          Yes               Yes               -
                                                     18   Reading MPO                   Optimization   Ongoing         No          Yes               Yes               -
Recommendations




                                                     19   Anaheim Canyon Station        Optimization   Canceled        No          Yes               Yes               -
                                                     20   Santa Monica MPO              Optimization   Complete        Yes         Yes               Yes            7/1/13
                                                     21   San Dimas MPO                 Optimization   Canceled        No          Yes               Yes               -
                                                          Thousand Oaks Newbury
                                                     22                                 Optimization   Complete        Yes         Yes               Yes           6/22/13
                                                          Park Branch
                                                     23   Berkeley MPO                  Optimization   Ongoing         No          Yes               Yes               -
                                                     24   Julius Melcher Station        Optimization   Ongoing         No          Yes               Yes               -
                                                     25   University Station            Optimization   Ongoing         No          Yes               Yes               -
                                                     26   Downtown Fort Worth Station   Optimization   Ongoing         No          Yes               Yes               -
                                                     27   Southmore Station             Optimization   Ongoing         No          Yes               Yes               -
                                                     28   Vero Beach Tropic Branch        Lease        Ongoing         Yes         Yes               Yes               -
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                         Print                                    18
                                                                                                                                          New Location
Highlights
                                                                                                                                          Identified
                                                                                                                                          at Public
                                                                                                                                          Meeting                      Adequately
                                                                                                                                          or Before    Press           Solicited
                                                                                                                                          Comment      Release         Public Written Date Relocation
                                                              Facility Name                                    Origin           Status    Period Ended Issued          Comment        Completed
                                                     29    Iowa City MPO                                         Optimization   Ongoing          No       No               No                -
                                                     30    Coralville Sub Station                                Optimization   Ongoing          Yes      No               No                -
                                                     31    East Union Station                                    Optimization   Ongoing          No       No               No                -
Table of Contents




                                                     32    Richland MPO                                          Optimization   Ongoing          No       No               Yes               -
                                                     33    International Station                                 Optimization   Ongoing          No       No               No                -
                                                     Total No Responses                                                                          25       16               13
                                                     Note: Dash (-) indicates “not applicable.”
                                                     Source: OIG analysis of retail operations relocation files.27
Findings
Recommendations
Appendices




                                                     27	 As projects were ongoing during the OIG’s review, their status may have subsequently changed.
                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                               Print                                    19
Highlights
                    Appendix E:
                    Management’s Comments            TOM A. SAMRA
                                                     VICE PRESIDENT , FACILITIES




                                                     August 7, 2014
Table of Contents




                                                     LORI LAU DILLARD via email (audittracking@uspsoig.gov)
                                                     ACTING DIRECTOR, AUDIT OPERATIONS

                                                     SUBJECT: Draft Audit Report – Post Office Relocation Process
                                                              Draft Audit Report Number DR-AR-14-DRAFT


                                                     Thank you for the opportunity to review and comment on the above referenced draft Audit Report.
                                                     The Postal Service generally agrees with the OIG’s recommendations, which will help the Postal
                                                     Service improve transparency, as well as its processes for handling relocations of customer service
                                                     facilities.

                                                     In section A below, management addresses the OIG’s findings. In section B below, management
                                                     addresses the OIG’s recommendations.
Findings




                                                          A. OIG Draft Audit Report Findings.

                                                               1. The relocation process was not always transparent. Generally, the Postal Service did
                                                                  not announce new locations until after the public comment and appeals periods had
                                                                  ended and it had selected and secured a new site. The regulation and Postal Service
                                                                  guidance do not require officials to announce the new sites at public meetings or before
                                                                  the public comment and appeal period ends. Postal Service guidance instructs
                                                                  responsible personnel to use due diligence in divulging the final site selection. This due
                                                                  diligence may include postponing notification to local officials and the public to protect
                                                                  the Postal Service’s negotiating leverage and control costs.
Recommendations




                                                               Management Response: Management agrees that due to the current regulations’
                                                               requirements, the anticipated site is not always identified at the initial public meeting.
                                                               However, even under the existing regulation, the Postal Service provides information to the
                                                               public and local officials about the relocation and the contending sites for the new location,
                                                               albeit not concurrently, and both the public and local officials have opportunities to comment
                                                               on the relocation and the contending sites. The OIG’s draft report states that the regulations
                                                               “do not require” the Postal Service to notify the public of the selected site at the public
                                                               meetings. In fact, the current regulation precludes it; it requires the Postal Service first
                                                               determine whether to relocate, taking into account community input, then determine the new
                                                               site. Therefore, Management requests that the report make clear the Postal Service is not
                                                               arbitrarily withholding site information, but following the existing regulation. Finally, the OIG
                                                               cites as “Postal Service guidance” the Postal Service’s Community Relations Regulations for
                                                               U.S. Postal Service Facilities Projects (May 1999) and states that the guidance “instructs
                                                               responsible personnel to use due diligence in divulging the final site selection.” However,
                                                               that statement does not accurately reflect the guidance’s text or intent. During the site
                                                               selection phase, the current regulation requires the Postal Service to first notify local officials
                                                               and the public of the contending sites. In that context, the guidance addresses an example
Appendices




                                                     475 L’ENFANT PLAZA, SW
                                                     W ASHINGTON, DC 20260-1861
                                                     WWW.USPS.COM




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                                      Print          20
Highlights
                                                                                                -2-



                                                     where only one potential site is available by saying “[y]ou may delay notifying local officials
                                                     and the public until due diligence is completed...” In real estate leasing, “due diligence”
                                                     means the research and investigation a tenant undertakes in order to determine whether a
                                                     site is suitable. Therefore, the Postal Service guidance is simply pointing out that the Postal
                                                     Service may complete its due diligence on the site before telling officials and the public that
                                                     it is a contending site.
Table of Contents




                                                     2. The Vice President, Facilities, has conflicting responsibilities for approving funding and
                                                        adjudicating relocation appeals. We did not identify any improprieties regarding the
                                                        appeals we reviewed; however, because of the Facilities Vice President’s conflicting
                                                        responsibilities, the public may see this official as lacking objectivity to fairly adjudicate
                                                        appeals.

                                                     Management Response: As discussed below, Management agrees with revising Postal
                                                     Service guidance to allow for separating project approvals from appeals adjudication.
                                                     Management disagrees with the OIG’s statement that the responsibilities are conflicting and
                                                     Management notes that nothing in the report demonstrates that the roles are, in fact,
                                                     conflicting. Further, because the report provides no support for concluding the
                                                     responsibilities conflict and because the OIG found no improprieties in the process, the
                                                     report’s statement that “the public may see this official as lacking objectivity,” therefore
                                                     appears unfounded. In approving a project, the Vice President, Facilities is exercising
                                                     prudent management responsibility to ensure appropriate allocation of scarce capital. He
                                                     has no compensation or promotional opportunities tied to either the project approval or the
Findings




                                                     appeals decision. Rather than conflicting, the roles can be complementary because a fair
                                                     and objective review of the competing interests would require understanding the public’s
                                                     concerns as well as the Postal Service’s financial and operational requirements. Finally,
                                                     even assuming the existence of “conflicting roles,” Management finds no logical support for
                                                     the OIG’s assertions in the report that such conflicting roles are a cause for the issues
                                                     identified in the other findings, such as ineffective process management or insufficient
                                                     record keeping.

                                                     3. The Postal Service could not readily identify the number of completed or ongoing
                                                        relocations for FYs 2011 through 2013.
Recommendations




                                                     Management Response: In order to make the best use of limited funds and staffing,
                                                     Management collects data and statistics that help Management efficiently and effectively
                                                     manage Postal Service operations. The Postal Service already has tools for managing
                                                     individual relocation projects and has never needed to quantify the completed or ongoing
                                                     relocations nationwide in order to manage Postal Service operations. We note that the OIG’s
                                                     audit report cites no financial or operational benefit from such quantification.

                                                     4. Area RES did not always effectively manage the relocation process when notifying the
                                                        public and managing documentation. These conditions occurred for several reasons,
                                                        including (i) officials did not always know the guidelines and processes, and (ii) the Vice
                                                        President, Facilities, has authority to approve funding and adjudicate appeals.

                                                     Management Response: Management believes the RES generally manage the relocation
                                                     process effectively, but agrees with the recommendations for establishing relocation records
                                                     retention requirements and for providing additional formal training to the personnel involved
                                                     in the relocation process. As discussed above, Management does not agree that the Vice-
Appendices




                                                     President’s “conflicting roles” is the reason for any shortfalls in managing the relocation
                                                     process or for the absence of documentation.




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                       Print             21
Highlights

                                                                                                 -3-




                                                     B. OIG Draft Audit Report Recommendations.

                                                        1. Revise Postal Service regulations and guidance for the retail operations
                                                           relocation process to enhance transparency and public input regarding potential
Table of Contents




                                                           alternative site selections.

                                                        Management Response: Prior to this audit, management had identified issues with the
                                                        timing and substance of disclosures under the current regulation governing the relocation
                                                        process. Management is considering revisions to the regulation to address several
                                                        concerns, including the concerns raised by the OIG. Management anticipates that any
                                                        revision of this regulation will require substantial time and analysis to thoughtfully address
                                                        the concerns of the OIG, the public and others. Additionally, any revision must follow the
                                                        regulatory process for modification to Federal regulations, a process that will require, among
                                                        other things, public input and the Postal Service’s careful evaluation and response to such
                                                        input. Therefore, at this time, Management cannot identify a completion date or commit to
                                                        making any specific changes in the regulations.

                                                        2. Modify Postal Service guidance for retail operations relocations to remove dual
                                                           responsibilities for approving funding and adjudicating appeals.

                                                        Management Response: Management agrees with the recommendation and will implement
Findings




                                                        it by September 30, 2014.

                                                        3. Establish a method to track and monitor retail operation relocations nationwide.

                                                        Management Response: Management has determined that it can modify an existing
                                                        management data tool to permit a calculation of the number of ongoing and completed
                                                        relocations nationwide. Although the OIG report cites no operational or financial benefits to
                                                        support the Postal Service expending scarce resources during a financial crisis to implement
                                                        the OIG’s recommendation, and although Management already has tools to effectively
                                                        manage relocation projects, because the management data tool modification is not a
                                                        substantial change and will entail only minimal cost in terms of funds and staffing time,
Recommendations




                                                        Management will implement this recommendation by October 31, 2014.

                                                        4. Establish documentation requirements and retention periods for relocation files.

                                                        Management Response: Management agrees with this recommendation. On June 19,
                                                        2014, the Postal Service established documentation requirements and retention periods for
                                                        relocation files and published internal guidance for personnel. Attached is a copy of the
                                                        requirement for documentation and retention periods for relocation files.

                                                        5. Provide formalized training for real estate specialists to ensure they administer
                                                           the relocation process appropriately.

                                                        Management Response: Management agrees with this recommendation. Management will
                                                        provide a formalized training update for current personnel by September 30, 2014 and
                                                        ensure that future employees engaged in the relocation process receive the formalized
                                                        training.
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                        Print            22
Highlights

                                                                                                    -4-




                                                     In conclusion, management appreciates the OIG's efforts in auditing the Postal Service’s Relocation
                                                     Process and preparing this Audit Report. The draft report and Management's responses do not
                                                     contain information that management believes may be exempt from disclosure under the FOIA.
Table of Contents




                                                     Sincerely,




                                                     Tom A. Samra

                                                     cc: Sally K. Haring, Manager via email (CARMManager@USPS.GOV)
                                                         E-FOIA@uspsoig.gov
Findings
Recommendations
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                                       Print               23
Highlights
Table of Contents
Findings




                                                        Contact us via our Hotline and FOIA forms, follow us on social
                                                     networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                            or abuse. Stay informed.
Recommendations




                                                                           1735 North Lynn Street
                                                                          Arlington, VA 22209-2020
                                                                                (703) 248-2100
Appendices




                    Post Office Relocation Process
                    Report Number DR-AR-14-008
                                                                                                                              Print   24
